Supreme Court, U.S.
FILED

JUN 2 1 2021
OFFICE OF THE CLERK

No.

9
IN THE
SUPREME COURT OF THE UNITED STATES

ANIBAL ALEJANDRO BEBTANDEZpFTmONFR
(Your Name)
vs.

BOBBY LUMPKIN,DIRECTOR

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

ITNTTF.n STATES DISTRICT COURT.NORTHERN DISTRICT OF TEXAS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ANIBAL ALEJANDRO HERNANDEZ
(Your Name)
810 FM 2821

TDCJ # 1993103,
(Address)
Huntsville, TX

77349

(City, State, Zip Code)

(Phone Number)

fa »«\ •
rii

I S f
p
i

QUESTION(S) PRESENTED

I.

Was Petitioner denied the effective assistance of counsel when
his trial counsel failed to object to Petitioner being ordered
by the trial court to be shackeled during the entirety of his
trial based on general courtroom security?

II.

Was Petitioner denied effective assistance of counsel when during
closing arguments trial counsel told the jury that Petitioner was
a "liar" and a "rat" willing to say anything to escape his charges?

ii
?

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

iii
p

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3.

STATEMENT OF THE CASE

A

REASONS FOR GRANTING THE WRIT

5 & 7

CONCLUSION

10

INDEX TO APPENDICES

APPENDIX A :Decision of the United States District Court
APPENDIX B

:Decision of the U.S. Court of Appeals,Fifth Circuit

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

IV .

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Deck v. Missouri j 544 U.S. 622 (2007)
McCoy v. Louisianna 3 138 S.Ct. 1500 (2018)
Rickman v. Bell 3 131 F.3d 1150 (6th Cir. 1997)
Strickland v. Washington, 466 U.S. 668 (1984)

STATUTES AND RULES

OTHER

v.

5
7
7
7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[xl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix £___to
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix _A
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ $ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 25,2021
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: -----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

"In all criminal prosecutions, the accused shall enjoy the right...
to have the assistance of counsel for his defense." U.S. Const. Amend. VI.

n[N]or shall any State deprive any person of life,liberty,or pro­
perty without due process of law[.]" U.S. Const. Amend XIV.

3

STATEMENT OF THE CASE
Petitioner was charged with capital murder of Mark Anthony Torres
and Aracely Charles committed during the same criminal transaction
on or about September 7,2013. Petitioner pleaded not guilty, but a
jury found him guilty, and the trial court sentenced him to automatic life without parole.
Adopting the findings and conclusions of the State habeas Court,
the U. S'. District Court found that Petitioner was not denied his
right to effective assistance of counsel when Petitioner's trial
counsel failed to object to Petitioner being shacklada during the
entirety of his trial based on a Tarrant County,Texas trial Court
policy of shackixm'g0 defendants based on general courtroom security
purposes. The U.S. District Court also found that trial counsel was
not ineffective when,during his closing arguments trial counsel
told the jury that Petitioner was a "liar" and a "rat" willing to
say anything to escape his charges.
The U.S. Court of Appeals for the Fifth Circuit affirmed and denied
Petitioner a Certificate of Appealability.

4

REASONS FOR GRANTING THE PETITION

QUESTION X.
Was Petitioner denied the effective assistance of counsel when his
trial counsel failed to object to Petitioner being ordered by the
trial court to be shackleda during the entirety of his trial based
on general courtroom security purposes?
TheiPetitiorr:’should be. Granted because the lower State and Federal
Courts' decisions are contrary to this Supreme Court's decision in
Deck v. Missouri, 544 U.S. 622 (2007).
At the very outset of Petitioner's trial, prior to the start of the
jury selection the State magistrate judge ordered that Petitioner
be placed in shackels for the duration of the trial. The magistrate
gave no reason for the order. Petitioner at no point in the trial
proceedings had displayed any form of disruptive behavior. Trial
counsel lodged no objection to the order.
In his State writ of habeas corpus, Petitioner alleged he suffered
prejudice by his trial counsel's failure to object to the shackeling. Petitioner alleged that the shackels were noticeable to the jury
based on the rattling sound whenever Petitioner moved; Petitioner
alleged that the shackels impeded his ability to effectively commun­
icate with his trial counsel throughout the trial; Petitioner alleged
that being shackeled negatively affected his decision as to whether
or not he testified in his own behalf; and Petitioner alleged that
his trial counsel's failure to object to the shackeling undermined
his confidence and trust in his trial counsel's representation.
(Petitioner's State habeas writ).
During the State habeas proceedings, trial counsel filed an affi­
davit responding to Petitioner's allegations. The only allegation
denied by trial counsel was that the shackels were "visible" to the
jury because they were concealed by a "skirted counsel tale (sic)."
Counsel explained that "this method of courtroom security is standard

5

"in Tarrant County and has been for over 20 years." (Affidavit of
Trial Counsel).
The State habeas court denied releif on grounds that Petitioner
presented no evidence that the jury was "aware" of the shackels;
that Petitioner failed to complain on his direct appeal about the
shackels; and that there lacked a reasonable liklihood of a different
trial outcome had trial counsel objected. (State habeas record at 102).
The State habeas court ignored Petitioner's undisputed declaration
that the jury was aware of the shackels due to their rattling; the
court ignore Petitioner's undisputed declaration that the shackels
impeded his communications with counsel during trial; the Court ignored Petitioner's undisputed allegation that the shackeling adverse­
ly affected his decision whether to testify; and the Court ignore
Petitioner's allegations that trial counsel's failure to object to
the shackels undermined his confidence and trust in counsel s repre­
sentation .
Both the State and Federal habeas Courts placed emphasis primarily
on the claim that the shackels were not "visible" to the jury.
Petitioner argued that his claim in regards to the shackeling could
not be raised on his direct appeal, because trial counsel failed to
preserve error.
The State habeas court also concluded that nothing in the record
showed that the shackels "undermined the dignity of the judicial
process . " (State Habeas Court Record at 102, P.17).
In Deck v. Missouri, 544 U.S. 622,635 (2007), this Court made clear
that more than whether or not shackels are visible to the jury is at
issue when a defendant is made to stand trial while shackeled without
the Court giving its justification for such restraints.
In Deck this Court held that other constitutional guarantees to a
fair trial under due process of law "are directly implicated" by the
shackling, including the presumption of innocence,the impediment of
a defendant's ability to effectively communicate with counsel, and
that the routine use of shackles compromises "[t]he courtroom's for­
mal dignity which includes the respectful treatment of defendants[.]"
6

These "guarantees11 elucidated by this Court in Dec-b were disregard­
ed and given no meaningful consideration by any of the lower courts.
Moreover , trial counsel's failure to object to the "routine" use of
shackels on Petitioner was not due to any "strategic" or tactical
decisions. Instead, per counsel's affidavit, his action, or lack of
action, was in acquiesence to Tarrant County s uncaonstitutional and
longtime policy of routinely shackeling defendants based on general
courtroom security, despite this Court s decision in Deck.
Counsel's failure to object to a policy this Court outlawed long ago
constitutes deficient performance, as well as prejudicial performance
under this Court's decision in Strickland v. Washington, 466 U.S. 668
688 (1984) .
As well this Court should exercise its supervisory authority to rein
in, and put an end to, Tarrant County Courts routine use of shackels
for general courtroom security.
Petitioner respectfully request this Court GRANT a writ of certioran.
QUESTION II.
Was petitioner denied effective assistance of counsel when during
closing arguments trial counsel told the jury that Petitioner was
a "liar" and a "rat" willing to say anything to escape his charges?
The Petition should be Granted because, while this Court has ruled
that when trial counsel explicitedly concedes a defendant's guilt
over the defendant's objections he renders ineffective assistance of
counsel, (McCoy v. Louisianna, 138 S.Ct. 1500 (2018)), the question of
whether counsel's implicit concession of guilt,combined with his disparaging epithets, satisfies both prongs of Strickland creates a
split amongst the circuits.
In Rickman v. Bell 131 F.3d 1150,1159 (6th Cir. 1997), the Court
found that similar conduct by the defendant s counsel in disparaging
the defendant in the eyes of the jury satisfied both prongs of
Strickland.
In Petitioner's case Petitioner was interviewed three separate
times by police. Some of the statements made to police and other state
witnesses were contradictory.
7

At trial Petitioner's defense was to ameliorate the contradictions
by explaining that he was under coercion and duress from a party im­
plicated in the case, whom Petitioner described as connected to a vio­
lent drug cartel. In Petitioner's final statement to police, he ex­
plained that he was intimidated into making earlier claims out of fear
and intimidation of and by the cartel connected associate. (Volume 8
of Reporter's Record of Trial, at P. 57).
Importantly, the lead detective testified and conceded that he could
not disprove Petitioner's final version of how the murders occurred.
The final version exonerated Petitioner. (Volume 8, Reporter's Record,
at P. 106)..
Nevertheless, at his closing arguments, trial counsel told the jury
that the defensive theory put forward, which tracked Petitioner's
final version of how the murder occurred, was "fabricated." (Id., at
P. 177). Trial counsel, directly, called Petitioner a "liar" and a
"rat" willing to say anything to escape his charges, (id., at P. 178).
Despite trial counsel's statements being recorded in the record of
trial, in his post conviction affidavit responding to Petitioner's
claim, trial counsel claimed to have no recollection of "directly"
calling Petitioner a liar and a rat. (See Affidavit of Trial Counsel)
He never explained why he told the jury that the defensive theory
p.ut forward by Petitioner, which the lead detective admitted he could
not disprove, was "fabricated."
The State habeas court ruled that trial counsel calling Petitioner a
liar and a rat, "when read in the "context" of counsel's closing argument "was an attempt to create reasonable doubt regarding the
credibility of Petitioner's confession," (Federal Court Docket No.
22, at P. 16).
However, in his affidavit, trial counsel never claimed that his
comments to the jury that Petitioner's defensive theory was "fabri­
cated" or that his calling Petitioner a "liar" and a "rat" willing
to say anything to escape the charges was a tactical or strategic
decision. His explanation was that he had no recolloection of directly
calling Petitioner the disparaging names. Counsel never explained why
he told the jury the defensive theory was fabricated.
8

Trial counsel's actions in implicitedly conceding Petitioner's guilt
and undermining Petitioner's defensive theory while referring to Pe­
titioner in highly inflammatory and derogatory epithets devastated
Petitioner's defense. The Sixth U.S. Court of Appeals decision in
Rickman v. Bell, 131 F.3d 1150,1159 (6th Cir. 1997),which deals with
virtually the same conduct by the trial counsel in that case,is oppos­
ite to the decision affirmed by the Fifth Circuit in Petitioner's
case.
Nevertheless, while there may be a split amongst the circuits as to
and while whether an attorney's "implicit" conceding
the outcomes
of his client's guilt may not have been directly addressed in this
Court's decision in McCoy, supra, it is well established law that a
trial counsel's loyalty is due to his client, and that belittling
his client in the eyes of the jury does not satisfy the mandates of
effective assistance of counsel, as set forth in Strickland v.
Washington, 466 U.S. 668 (1984).
The lower court's decisions that Petitioner's trial counsel's actions
do not satisfy both prongs of Strickland is contrary to well establis­
hed law.
Wherefore, Petitioner respectfully request that this Court grant a
writ of certiorari.

9

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted

/j'/puJh,
Date:

T

y

j

yf /

f

T

7f
7

r

10

it

.y

